         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over the
Hanford Site Transuranic Mixed Tank
Waste




OAS-M-06-01                            November 2005
REPORT ON MANAGEMENT CONTROLS OVER THE HANFORD SITE
TRANSURANIC MIXED TANK WASTE



TABLE OF
CONTENTS


  Hanford Site Transuranic Mixed Tank Waste

  Details of Finding                                  1

  Recommendations and Comments                        3


  Appendices

  Objective, Scope, and Methodology                   6

  Prior Audit Reports                                 8
Hanford Site Transuranaic Mixed Tank Waste

Regulation and      The Office of River Protection (ORP) pursued the Transuranic
Permits             Mixed Tank (TRUM) Waste Project without sufficiently
                    addressing regulatory and permitting issues. In 2003, ORP
                    initiated efforts through its contractor, CH2M Hill Hanford Group,
                    Inc. (CHG) to proceed with the TRUM waste project. According
                    to its plan, CHG would initiate retrieval of the TRUM waste from
                    the tanks beginning in October 2004, and make its first shipment of
                    the treated waste to Waste Isolation Pilot Plant (WIPP) in June
                    2005. To accomplish its plan, the Department incentivized CHG
                    with $8 million in incentives. CHG initiated its design efforts on
                    the project and in November 2003, issued an $11 million
                    subcontract to acquire the necessary equipment. However, we
                    found that the Department had not sufficiently addressed
                    regulatory and permitting issues prior to incentivizing the
                    contractor and proceeding with work on the project.

                    The Department has not yet completed the regulatory actions
                    required under the National Environmental Policy Act of 1969
                    (NEPA) prior to proceeding with the TRUM waste project. The
                    initial NEPA analysis was performed in 1996 and evaluated the
                    environmental impact of vitrifying the waste for disposal at a high-
                    level waste (HLW) repository—a process very different than
                    currently being pursued for the TRUM waste. On December 15,
                    2003, the Department’s ORP approved and issued Supplement
                    Analysis for Hanford Tank Farm Contact-handled Transuranic
                    Mixed Waste Treatment, Packaging, and Storage (Supplement
                    Analysis) to the 1996 Environment Impact Statement (EIS).
                    However, the Supplement Analysis did not address key issues which
                    the Department’s Office of Environment, Safety and Health (EH)
                    considered critical to the public. Specifically, EH noted the analysis
                    did not:

                       •   Clarify the waste classification in light of recent court
                           decisions;

                       •   Address the cost, feasibility, additional waste generation, and
                           timing issues related to reversing the TRUM waste treatment
                           process if the waste is not accepted for disposal at WIPP;

                       •   Consider the environmental impact of reversing the action;
                           and,

                       •   Address potential worker impact for storing the waste above
                           ground.




Page 1                                                               Details of Finding
                     Although the above concerns were raised in 2003, ORP did not
                     decide to begin addressing them until April 2005 as part of a broader
                     EIS process on technologies to accelerate tank waste retrieval.

                     In addition, the Department had not sufficiently resolved
                     permitting issues prior to initiating the TRUM waste project. As
                     early as 2003, the State of New Mexico, Environment Department
                     (NMED), which grants the permit for final disposal of the waste at
                     WIPP, expressed concerns about disposing of the tank waste at
                     WIPP because it had been managed as high-level waste (HLW).
                     Additionally, the State of Washington, Department of Ecology
                     (Ecology) officials indicated that they would not issue a permit to
                     retrieve, treat, and temporarily store the waste above ground at the
                     Hanford Site until there is an approved geological disposal site, for
                     example, WIPP. Despite these concerns, ORP pursued the project
                     without addressing NMED concerns. In July 2004, the
                     Department and NMED signed an agreement, that for the interim,
                     no tank waste would be sent to WIPP under the current permit.
                     Subsequently, ORP drafted a permit to dispose of the tank waste at
                     WIPP, but in April 2005, ORP decided to curtail work on the
                     project.

                     ORP has requested its contractor to prepare a transition plan to,
                     among other things, deploy equipment procured for the TRUM
                     project to other projects. ORP officials told us they plan to renew
                     work on the project once the necessary regulatory and permitting
                     processes are complete and sufficient budget resources are
                     available.

Project Management   ORP did not fully identify and mitigate risks associated with the
                     TRUM waste project because it did not follow key project
                     management principles. The Department’s project management
                     principles require the development of a project execution plan
                     which, among other things, addresses the need for a risk
                     management plan. An essential part of the plan is to ensure that
                     the risks associated with a project have been identified, analyzed,
                     and determined to be either eliminated, mitigated, or manageable.
                     While the Department had developed the Integrated Mission
                     Acceleration Plan in 2003, this plan addressed the retrieval,
                     treatment, and disposal of waste from 177 waste tanks at Hanford.
                     It was developed at a very broad level and did not focus on specific
                     risks to the TRUM waste project; i.e. whether the waste would be
                     accepted for disposal at WIPP under the existing permits. The
                     development of such a plan would have assisted the Department in
                     identifying risks and developing mitigation strategies.




Page 2                                                               Details of Finding
Environmental     If ORP had addressed regulatory and permitting issues early in the
Risks and Costs   project, it may have avoided curtailment of work in 2005. As a
                  result, ORP is at risk of not realizing approximately $459 million
                  in savings that it estimated could be realized by treating and
                  disposing of the waste as TRUM, as oppose to HLW. ORP may
                  also not be able to fully benefit from the $40 million it has invested
                  in the project to date. Additionally, ORP has paid the contractor
                  about $3.7 million of the incentive fee for design and acquisition of
                  retrieval systems and procurement of equipment. The contractor
                  has also requested that ORP provide an equitable adjustment to its
                  contract so that it has an opportunity to earn the remainder of the
                  $8.3 million TRUM waste project-related incentives by
                  performance on other projects.


RECOMMENDATIONS   We recommend that the Principal Deputy Assistant Secretary,
                  Environmental Management, direct the Manager, Office of River
                  Protection to:

                      1. Mitigate regulatory and permitting risks, including the
                         concerns raised by EH before resuming work on the TRUM
                         tank waste project; and

                      2. Ensure risk mitigation plans are developed in the future that
                         identify project-specific risks and propose appropriate
                         mitigation strategies before initiating projects and resuming
                         the TRUM waste project.


MANAGEMENT        The Office of Environmental Management concurred with the
REACTION AND      recommendations in the report. However, management disagreed
AUDITOR           with certain facts and conclusions contained in the report.
COMMENTS
                  With reference to the recommendations, management stated that it
                  intends to obtain the requisite NEPA coverage through the Tank
                  Closure EIS; have the State of New Mexico Environment
                  Department and the U.S. Environmental Protection Agency
                  conduct independent reviews; and incorporate additional risk
                  mitigation elements into the path forward consistent with DOE
                  413.3 requirements. We consider management’s planned actions
                  to be generally responsive to the recommendations.

                  Nonetheless, management did not agree with several points raised
                  in the report. Management’s concerns, along with the auditors’
                  comments, are presented below.




Page 3                                         Recommendations and Comments
         Management Comment: Management stated that ORP did have
         risk measures in place consistent with the Department’s project
         management principles that addressed reasonably foreseeable
         technical and regulatory risks. ORP and its contractors had
         numerous exploratory meetings and discussions (including site
         visits) with both the Ecology and NMED to identify a path forward
         and associated risk. Additionally, ORP’s mitigation strategy
         included provisions for using equipment purchased for the project
         on other ORP projects with similar needs.

         Auditor Comment: We are aware that ORP has had multiple
         discussions and meetings with NMED and Ecology over the path
         forward for the transuranic mixed tank waste. However, ORP was
         unable to provide us with key project management documents,
         such as a written project execution plan, risk assessment, or risk
         mitigation plan specific to the TRUM waste project. While
         elements of these documents were included in the 1996 EIS, they
         were very general in nature and addressed all of the waste storage
         tanks at Hanford. Further, there are critical parts of the TRUM
         waste project, such as above ground waste storage, that were not
         addressed in the 1996 EIS.

         While ORP identified a mitigation strategy for the equipment once
         it was determined the project could proceed no further without the
         necessary permits, such an approach is not effective in mitigating
         project risk. Rather, effective risk mitigation is addressed early on
         to ensure the project’s success. The mitigation strategy to
         distribute equipment to other projects was employed by ORP after
         the project could proceed no further without necessary permits
         rather than early on as a means to evaluate whether the
         procurement should proceed at all. Waiting to mitigate risks after
         a project is being suspended can also result in unnecessary costs.
         In fact, CHG estimates it will cost the Government around
         $2 million to ramp-down this project including the closeout of
         contracts. This funding could have been invested in current
         operations, performing the NEPA process, and applying for the
         appropriate permits.

         Management Comment: Management stated that the requirement
         for WIPP Class 3 Permit Application was not in place at the time
         the project was initiated and was not raised as a potential
         requirement by NMED.

         Auditor Comment: The TRUM waste project started in FY 2003.
         As early as November 11, 2003, the Department became aware
         that tank waste would not be accepted after NMED filed a public



Page 4                                                           Comments
         notice of intent proposing to approve an agency-initiated
         modification to the Hazardous Waste Facility Permit for WIPP.
         This modification would limit waste eligible for disposal at WIPP
         to the inventory identified when the permit was originally issued.
         According to NMED, there is a specific list of Transuranic waste
         types shown in the “Transuranic Waste Baseline Inventory Report”
         (TWBIR) that will be acceptable for final disposal at WIPP and
         waste in the Hanford underground tanks was not identified on the
         1995 TWBIR. In July 2004, the Department agreed not to process
         tank waste for disposal at WIPP until a Class 3 Permit allowing
         them to do so was approved. Further, in September 2004, the
         Office of Inspector General briefed both ORP and Environmental
         Management of our concerns about proceeding with the project
         until the appropriate permits were approved that would allow the
         Department to process the waste as TRUM. Thus, the Department
         had ample time to reevaluate the project prior to the April 2005
         curtailment.

         Management Comment: Management stated that the draft
         report’s reference to “waste classification” and “recent court
         decisions” does not appear to take into account that the waste in
         the eight tanks is not high-level waste by virtue of its origin. The
         court decision (which was subsequently remanded) applied to the
         use of the waste-incidental-to-reprocessing evaluation criteria in
         DOE Manual 435-1-1. Those criteria are not applicable to the
         eight tanks and were never intended to be applied.

         Auditor Comment: The issues of waste classification and recent
         court decisions were raised by the Department’s Office of
         Environment, Safety and Health in its comments on the
         Supplement Analysis for Hanford Tank Farm Contact-handled
         Transuranic Mixed Waste Treatment, Packaging, and Storage.
         Our point in discussing these issues is that ORP did not respond to
         them, although they were concerns raised about the completeness
         of its environmental analysis supporting the decision to pursue the
         TRUM project.




Page 5                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Office of
              River Protection had sufficiently addressed regulatory and
              permitting issues prior to proceeding with the TRUM waste
              project.


SCOPE         We conducted the audit from March 2004 to June 2005 at the
              Hanford Site near Richland, Washington. The scope of the audit
              focused on the Department’s transuranic mixed tank waste project,
              which was initiated in Fiscal Year 2003, and its plans to treat waste
              from 11 underground storage tanks for disposal at the Waste
              Isolation Pilot Plant in Carlsbad, New Mexico.


METHODOLOGY   To accomplish the audit objective, we:
                  •   Obtained and reviewed cost analysis alternatives, documents
                      discussing origins of the waste, and a waste study
                      calculating dose rates of single shell tank waste;

                  •   Researched Federal and Departmental regulations;

                  •   Reviewed implementing procedures for the National
                      Environmental Policy Act of 1969;

                  •   Reviewed findings from prior audit reports regarding the
                      risks and uncertainties in the Department’s plans to clean up
                      the Hanford Site tank farm high-level waste;

                  •   Reviewed the CH2M HILL Hanford Group Inc. statement of
                      work for the Department’s Office of River Protection;

                  •   Assessed internal controls regarding project management;
                      and,

                  •   Interviewed key personnel in the Department’s Office of
                      Environmental Management; Office of Environment, Safety
                      and Health; Office of General Counsel; Office of River
                      Protection; Richland Operations Office and contractors;
                      State of Washington Department of Ecology and the State of
                      New Mexico Environment Department.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and



Page 6                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                    regulations to the extent necessary to satisfy the audit objective.
                    We assessed the Department’s compliance with the Government
                    Performance and Results Act of 1993. The Department did not
                    establish specific performance measures for the transuranic mixed
                    tank waste project. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that may
                    have existed at the time of our audit. Finally, we did not rely on
                    computer-processed data to accomplish our audit objective.
                    An exit conference was held with Environmental Management and
                    Office of River Protection officials on September 14, 2005.




Page 7                                         Objective, Scope, and Methodology
Appendix 2


                                  PRIOR AUDIT REPORTS


Office of Inspector General Reports

•   Accelerated Tank Waste Retrieval Activities at the Hanford Site (DOE/IG-0706, October
    2005). The audit disclosed that, in terms of both schedule and cost, the Department will not
    meet its Tri-Party Agreement milestone for the retrieval of waste from the single-shell tanks
    located at the C-Tank Farm. Based on the Department's latest schedule baseline, completion
    of retrieval activities will not be completed until March 2007, or six months after the Tri-Party
    Agreement milestone. Further, the path forward for completion of retrieval activities is not
    encouraging. For example, the Department's schedule baseline is dependent upon operating
    24 hours a day, seven days a week. However, we found that, at the time of the audit,
    CH2MHill Hanford Group, Inc. had not hired any additional personnel needed to enable the
    contractor to operate on such an expedited schedule. Further, the Department estimated that
    waste retrieval costs have increased to $215 million, more than doubling the initial estimate.

•   Sludge Removal Operations at the Hanford Site’s K Basins (DOE/IG-0698, September 2005).
    The audit disclosed that the sludge removal has continued to slip and has experienced
    significant cost overruns. Actual costs have exceeded budget costs by about $34 million since
    October 2002. The Department and its contractor Fluor Hanford, Inc. had not focused
    adequate attention on the sludge removal during the critical planning phase nor development of
    a risk management plan. As a result, cost overruns within the project could negatively impact
    the Department’s ability to further accelerate cleanup work on the Hanford Site.

•   Transuranic Waste Retrieval and Processing at the Hanford Site (DOE/IG-0624, October
    2003). The audit identified that the Department faces significant challenges in its efforts to
    retrieve and process transuranic (TRU) waste at the Hanford Site. None of nearly 10,000
    containers had been retrieved. Because the Waste Retrieval and Processing (WRAP) facility
    has been underutilized it cost the Department $413,000 to store about 4,000 containers of TRU
    waste at the Central Waste Complex. The Department had not performed sufficient analysis to
    determine the optimal operating level for the WRAP to meet cleanup milestones and minimize
    project costs

•   Disposal of Remote-Handled Transuranic Waste at the Waste Isolation Pilot Plant (DOE/IG-
    0613, July 2003). The report concluded that opportunities exist for the Department to improve
    the efficiency of the remote-handled TRU waste disposal program over the next two decades.

•   Disposal of the Rocky Flats Environmental Technology Site’s Low-Level Mixed Waste
    (DOE/IG-0612, July 2003). The Department’s preferred disposal sites were not accepting low-
    level mixed waste (LLMW) from other Department sites. The Department has considered
    blending the LLMW up to the level of transuranic waste and disposing of the waste at WIPP;
    however, this alternative could cost the Department an additional $320 million.




Page 8                                                                      Prior Audit Reports
Appendix 2

Government Accountability Office

   •   Nuclear Waste: Absence of Key Management Reforms on Hanford’s Cleanup Project Adds
       to Challenges of Achieving Cost and Schedule Goals (GAO-04-611, June 2004). GAO
       stated that there was “Inadequate planning to assess and mitigate the effects of a legal
       challenge to DOE’s overall approach to treating and disposing of high-level radioactive
       waste.” GAO reported that the treatment strategy rests heavily on the Department’s ability
       to determine that a majority of its tank waste can be classified as other than high-level
       waste and treated with less expensive technologies. GAO believed a more thorough
       analysis and full disclosure are needed concerning the potential risk this legal issue poses to
       the waste treatment project at Hanford including potential impacts on the project's cost and
       schedule and the environmental risks associated with further delays. GAO believes full
       disclosure is important so that policy makers and others can undertake a more informed
       debate about the Department’s high-level waste program.




Page 9                                                                       Prior Audit Reports
                                                                    IG Report No. OAS-M-06-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
